  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                PUBLIC
               RELEASE


                     MINORITY BUSINESS
                  DEVELOPMENT AGENCY

  Discretionary Funding Decision Process:
           Minority Business Development
                         Center Program
                        CFDA No. 11.800

Final Audit Report No. BTD-10956-8-0001 / September 1998




        Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                        Audit Report BTD-10956-8-0001
Office of Inspector General                                                                                       September 1998

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        MBDC Solicitation Process Should Be Expanded
                    to Attract More Applicants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II.       MBDC Review Process Should Be Expanded
                    to Include Outside Reviewers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          III.      Procedures And Practices For Selecting MBDC Awardees
                    Are Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          IV.       Procedures And Practices For Renewing Prior MBDC Awardees
                    Are Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

           V.       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                               MBDA’s Response to Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . 11



APPENDIX I -                   MBDA Procedures for Solicitation, Review and Selection of Awards
APPENDIX II -                  New Awards for Fiscal Year 1997
APPENDIX III -                 Renewals for Fiscal Year 1997
APPENDIX IV -                  MBDA’s Complete Response to the Draft Report
U.S. Department of Commerce                                             Audit Report BTD-10956-8-0001
Office of Inspector General                                                            September 1998

                                   EXECUTIVE SUMMARY

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine (1) the recipients and (2) the funding levels of the
awards made under those programs. These programs involve a significant portion of the
Commerce Department’s budget and operations. If not properly administered, they are
particularly susceptible to fraud, waste, and misuse of funds. The Office of Inspector General
administers an active program of reviews – which includes audits, inspections, and investigations
– aimed at better ensuring that these programs are well-managed, represent the best use of
taxpayers’ dollars, and achieve their intended objectives.

Senator John McCain, Chairman, Committee on Commerce, Science, and Transportation,
requested that the Inspectors General of the Departments of Commerce and Transportation, the
National Science Foundation, and the National Aeronautics and Space Administration review the
discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG primarily review and report on:

l      the criteria developed, either statutorily or administratively, to guide agency officials in
       making discretionary spending decisions, and

l      the extent to which the criteria are appropriately applied.

The Federal Grant and Cooperative Agreement Act encourages competition in financial
assistance programs as a means to fairly and objectively identify and fund, based on merit, the
best possible projects, thereby achieving program objectives more effectively. Office of
Management and Budget guidance for administering competition-based financial assistance
programs encourages widespread solicitation of eligible applicants, independent application
reviews, and written justifications for award decisions. The Department of Commerce has
formally embraced these guidelines in formulating its policies and procedures for discretionary
funding programs, requiring that all financial assistance awards be made on the basis of
competitive reviews unless a special waiver is obtained. The competitive review process must
also meet minimum standards, including publication of a notice, at least annually, in the Federal
Register soliciting award applications.

The OIG is conducting a comprehensive review of the solicitation, review, and selection
processes for discretionary funding programs in the Department. As part of this review, we
conducted a performance audit of MBDA’s fiscal year 1997 award procedures and practices for
the Minority Business Development Center (MBDC) program. The MBDC program, described
in the Catalog of Federal Domestic Assistance as No. 11.800, provides business development
services to aid in the creation, expansion, and preservation of minority-owned businesses.

                                                  i
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

MBDCs are staffed by experienced business professionals with the skills needed to help clients
start, improve, or expand business. The services provided by MBDCs are made affordable
through a combination of private support and federal funding. The MBDC program awarded 12
new cooperative agreements and 29 renewals of prior awards, totaling $9,049,851, for fiscal year
1997.

We examined MBDA’s procedures and practices for the solicitation, review, and selection of
applications for funding under the MBDC program and found that they were generally adequate
and that they met the Department’s current minimum requirements. At the same time, we
identified opportunities for improving the program’s award procedures and practices.
Specifically, our audit disclosed that MBDA:

l      Followed established procedures in soliciting applications. However, the solicitation
       process should be enhanced by expanding and targeting advertising (see pages 6-7).

l      Followed established procedures and applied merit-based criteria in reviewing
       applications. However, the independence of the review process would be enhanced by
       inviting reviewers from outside MBDA and the Department to participate (see pages 7-9).

l      Has adequate procedures and practices for renewing prior awards (see page 10).

We recommend that the MBDA Director:

l      Expand the MBDC solicitation process, through announcements in additional media
       outlets and in areas with large minority populations, to provide a widespread solicitation
       of eligible applicants.

l      Include officials from outside MBDA and the Department as MBDC proposal reviewers
       to enhance the objectivity of the merit-based selection process.

                                            ------------

In its reply to our draft audit report, MBDA agreed with the recommendations and is modifying
its grants process to implement the recommendations and other improvements.




                                                -ii-
U.S. Department of Commerce                                             Audit Report BTD-10956-8-0001
Office of Inspector General                                                            September 1998

                                        INTRODUCTION

The Minority Business Development Agency, created by Executive Order 11458 in 1969, is the
only federal agency specifically established to encourage the creation, growth, and expansion of
minority-owned businesses in the United States. In 1971, Executive Order 11625 authorized
MBDA to “provide financial assistance to public and private organizations so that they may
render technical and management assistance to minority business enterprises.” The fiscal year
1997 appropriations for the Department of Commerce included funds “for necessary
expenses...in fostering, promoting, and developing minority business enterprise, including
expenses of grants, contracts, and other agreement with public or private organizations.”

MBDA’s Minority Business Development Center (MBDC) Program, described in the Catalog of
Federal Domestic Assistance (CFDA) as No. 11.800, provides business development services to
aid in the creation, expansion, and preservation of minority-owned businesses. MBDA supports
several MBDCs throughout the country. These centers are staffed by experienced business
professionals with the skills needed to help clients start, improve, or expand business. The
services provided by MBDCs are made affordable through both private support and federal
funding.

MBDCs provide each client with in-depth management and technical assistance for nominal
client fees. Services are tailored to the individual needs of minority businesses or prospective
businesses as follows:

l      Market assistance, including research, promotion, advertising and sales, pricing, sales
       forecasting, and market share analysis.

l      Finance and accounting assistance, including mergers and acquisitions, financial
       packaging, cost accounting, and planning and budget control.

l      Construction assistance, including estimating, bid preparation, bonding, and take-offs.

l      General management assistance, including corporate policy formulation, business
       planning, organizational development, public relations, reports and controls.

l      Personnel management assistance, including job evaluation and rating system
       development, and management training.

l      Manufacturing assistance, including plant management, plant location and site selection,
       and materials handling and distribution.

l      International trade assistance, including export sales, letters of credit, and export training
       companies.


                                                 -1-
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

MBDA can continue to fund MBDCs, without competition, after the initial competitive budget
period, not to exceed a total of five consecutive budget periods.

The MBDC program awarded 41 cooperative agreements, totaling $9,049,851, for fiscal year
1997. Of these, 12 were new awards, totaling $3,920,216, and 29 were renewals of prior awards,
totaling $5,129,635. Lists of all awards, including the names of recipients and the award
amounts, are provided as Appendices II (new awards) and III (renewals).

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much will be awarded.
Technically, all Commerce financial assistance programs are discretionary, rather than
entitlement, programs. However, the authorizing legislation for the programs provides for
varying degrees of discretion in making awards. The use of competitive selection procedures is
recognized as the most effective method of ensuring that financial assistance awards are made on
the basis of merit. One of the primary purposes of the Federal Grant and Cooperative Agreement
Act (31 U.S.C. §6301) is to encourage competition in the award of federal financial assistance to
the maximum extent practicable.

The Office of Management and Budget has issued regulations on administering competition-
based financial assistance programs for use by federal agencies. An interagency study group,
convened in 1979 by the OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, are:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following guidelines of particular relevance to federal financial
assistance programs:

l      OMB Circular A-123, Management Accountability and Control, requires agencies to
       establish written procedures for all programs and administrative activities, including
       financial assistance programs, that provide reasonable assurance that activities are
       effectively and efficiently managed to achieve agency goals.



                                               -2-
U.S. Department of Commerce                                                                                                                                   Audit Report BTD-10956-8-0001
Office of Inspector General                                                                                                                                                  September 1998

l                                       OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
                                        Governments, and A-110, Uniform Administrative Requirements for Grants and
                                        Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
                                        Organizations, require agencies to provide the public with advance notice in the Federal
                                        Register, or by other appropriate means, of their intended funding priorities for
                                        discretionary assistance programs unless such priorities are established by federal statute.

Commerce has embraced these regulations in developing and issuing policies and procedures for
its discretionary funding programs. Department Administrative Order (DAO) 203-26,
Department of Commerce Grants Administration, requires that (1) all Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register soliciting
award applications. The chart presented below depicts the process and controls for the
solicitation, evaluation, and selection of financial assistance awards as set forth in DAO 203-26.
The processes we reviewed during our audit are color coded for this chart and the MBDA process
chart located in Appendix I.


                                            Department of Commerce Financial Assistance Awards Process
    Congress




                                      LEGISLATIVE AUTHORITY &
                                      APPROPRIATIONS REQUIREMENTS




                                                                                                                                         PREAWARD SCREENING
    Department




                                                                                                                                         * Office of General Counsel Review        FINANCIAL
                                      POLICIES &                                                                                                                                   ASSISTANCE
                                      PROCEDURES                                                                                         * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                           -- Limited Background Check
                                                                                                                                           -- Credit Review
                                                                                                                                           -- Outstanding Audit Issues




                                                         SOLICITATION                 REVIEW                                                          PREAWARD SCREENING
    Bureau/Program




                                                                                                              SELECTION
                                       POLICIES &
                                       PROCEDURES        Public Announcement          * Independent Review    *   Quantitative Scores                 * Outstanding Accounts       SIGNED BY GRANT
                                                         and notification of             Panel(s)             *   Public Policy Considerations          Receivable                 OFFICER
                                                         financial assistance         * Evaluation Criteria   *   Recommend Action                    * Suspensions & Debarments   OR DESIGNATED
                                                         opportunities (eg.           * Numeric Ranking       *   Decision Fully Justified and        * Award Prepared Properly    OFFICIAL
                                                         Federal Register,
                                                                                                                  Documented
                                                         Commerce Business
                                                         Daily, Internet web sites)
    Financial Assistance Applicants




                                                                                                                                                                                      AWARD
                                                         PROPOSAL




                                                                                                              -3-
U.S. Department of Commerce                                              Audit Report BTD-10956-8-0001
Office of Inspector General                                                             September 1998

                                     PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of Senator John McCain, Chairman,
Committee on Commerce, Science, and Transportation. The Chairman requested that the
Inspectors General of the Departments of Commerce and Transportation, the National Science
Foundation, and the National Aeronautical and Space Administration review the discretionary
funding programs of their respective agencies to assess the manner in which discretionary
funding decisions are made. More specifically, the Chairman requested that each IG review and
report on the criteria developed, either statutorily or administratively, to guide agency officials in
making discretionary spending decisions, and on the extent to which the criteria are appropriately
applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (on-going). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation for each
Commerce financial assistance program and classified each program as either a “full discretion”
program or a “limited discretion” program, based on the extent to which the legislation limits the
agency’s authority to independently determine the recipients and funding levels of the awards
made under the program. Finally, we examined fiscal year 1997 appropriations legislation and
accompanying committee and conference reports to identify all earmarked projects.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the MBDA MBDC Program. We are evaluating the adequacy of
each program’s established award procedures. For those programs with procedures deemed to be
adequate, we are ascertaining whether they were followed in making awards in fiscal year 1997.
For those programs with procedures considered to be inadequate or lacking, we are reviewing
how fiscal year 1997 award decisions were made. Finally, we are examining the earmarks
identified for each program and determining their significance and impact on fiscal year 1997
award decisions. We plan to issue individual reports, with any appropriate recommendations, on
each program, followed by a capping report summarizing the results of the individual audits and
providing recommendations for the Department and its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.


                                                 -4-
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

This performance audit focused on funding decisions made during fiscal year 1997 under the
MBDC program. Specifically, we:

l      Reviewed the authorizing legislation and information summarized in the CFDA to
       identify criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing proposals and selecting
       recipients for funding (see Appendix I for flowchart of process). We also reviewed
       MBDA’s procedures as they applied to the solicitation, review, and selection process;
       specifically MBDA Order No. 750, Program Management of the Minority Business
       Development Center (MBDC) Program; Directions for Conducting MBDC Program
       Competitive Application Panel Reviews; and the Competitive Application Package for the
       MBDC program. We assessed whether the procedures were adequate and whether they
       were in compliance with DAO 203-26.

l      Reviewed selected fiscal year 1997 awards to compare MBDA’s procedures with its
       practices and determine if the process contained adequate internal controls to provide for
       competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and MBDA policies and procedures were followed.

l      Interviewed MBDA program office officials and personnel from the Department’s Office
       of Executive Assistance Management (OEAM) concerning MBDA’s solicitation, review,
       and selection procedures.

l      Examined fiscal year 1997 appropriations legislation and accompanying committee and
       conference reports to identify earmarked projects for the this program. None were found.

We did not rely upon computer-based data during the audit.

We performed the review at MBDA headquarters and OEAM in May and June 1998. We
conducted the audit in accordance with generally accepted government auditing standards, under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.




                                               -5-
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

                          FINDINGS AND RECOMMENDATIONS

MBDA’s procedures and practices for the solicitation, review, and selection of applications for
funding under the MBDC program complied with the minimum departmental and agency award
procedures. However, since only a few applications were received for each of the awards funded
during fiscal year 1997, MBDA may have unnecessarily limited the potential for receiving a
larger number of responsive proposals by soliciting proposals only in the Federal Register. Also,
applications were reviewed only by MBDA employees. The use of officials other than MBDA
employees to review proposals would enhance the independence of the merit-based award
selection process. We also found that MBDA has adequate procedures for renewals of awards
and that they properly followed them in renewing the fiscal year 1997 awards we examined.

I.     MBDC SOLICITATION PROCESS SHOULD BE EXPANDED
       TO ATTRACT MORE APPLICANTS

MBDA’s procedures and practices in soliciting applications for awards under the MBDC
program met the minimum regulatory requirement for public notice in the Federal Register of
the intent to award. However, our review of the 12 new MBDC awards in fiscal year 1997 found
the following:

l      MBDA received only 1 application for each of 5 MBDC awards.

l      MBDA received only 2 applications for each of 3 other MBDC awards.

l      MBDA received only 3 applications for each of 4 other MBDC awards.

The receipt of relatively few applications may have been due to MBDA publishing only the
required annual Federal Register notice, instead of using additional media targeted to reach the
minority population. Widespread solicitation of eligible applicants helps ensure that federal
programs receive multiple applications responsive to program objectives, and provides a larger
group of potential applicants with the opportunity to apply for assistance.

DAO 203-26, Section 4.02, lists required solicitation procedures for competitive grant programs.
These procedures are designed to ensure widespread notification to the interested public. Section
4.02 provides the following solicitation criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall
       publish at least annually a notice in the Federal Register which includes basic
       information for each discretionary grant program.



                                               -6-
U.S. Department of Commerce                                              Audit Report BTD-10956-8-0001
Office of Inspector General                                                             September 1998

l      Other Solicitations of Applications. Further notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must include information published
       in the Annual Public Notice.

l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

MBDA complied with the minimum regulatory requirement for publication of basic grant
information in the Federal Register. Between June 6, 1996, and May 27, 1997, MBDA
published eight notices in the Federal Register soliciting applications for awards in 12
geographic regions.

However, by using only the Federal Register rather than tailoring solicitation methods to reach a
widespread applicant population, MBDA may not have effectively solicited responsive
applications. Section 4.02.f. of the DAO states, “To ensure widespread notification to the public,
program officials are strongly encouraged to use publications in addition to the Federal Register
which, in their opinion, have a wide distribution among interested persons.” MBDA should have
expanded its solicitation process beyond the minimum required in order to reach minority-owned
institutions, located throughout the nation, that might have applied for the awards. For small,
well-defined applicant pools located within a small geographic region, a single targeted medium,
such as specialized periodicals or notices sent to each eligible entity, should be sufficient to reach
all eligible applicants. However, for large, less-defined applicant pools, a broad-based
solicitation medium, such as the annual Federal Register notice, coupled with at least one more
targeted medium, would be more likely to reach a significant portion of the eligible community.
Solicitation through multiple media is important for these applicant pools, since they may not
have easy access to a single information source.

In the future, MBDA can help ensure a larger number of responsive applications for the MBDC
program by providing eligible applicants with informative solicitations from sources other than
just the Federal Register. The media should include local newspapers, periodicals targeted
towards minorities, and announcements on its Internet web site.

II.    MBDC REVIEW PROCESS SHOULD BE EXPANDED
       TO INCLUDE OUTSIDE REVIEWERS

We reviewed six of the 12 new awards (including three of the five highest in dollar value),
involving $2,206,557 of the $3,920,216 for new awards, for compliance with review
requirements. There was more than one application for four of the six awards that we reviewed.
We found that all of the applications, including those for awards for which there were no other
applicants, were reviewed by a panel as required by departmental and MBDA procedures and

                                                 -7-
U.S. Department of Commerce                                             Audit Report BTD-10956-8-0001
Office of Inspector General                                                            September 1998

judged against the award criteria. The panel members also documented their deliberations as
required. However, MBDA used only its own business development specialists as panel
members to review the applications. To enhance the independence of the application review
process, MBDA should expand the review process by inviting reviewers from outside MBDA
and the Department to participate.

DAO 203-26, Section 4.02h.1, mandates that bureau competitive review processes meet the
following minimum requirements:

l      Applications are treated fairly under the review process;

l      Each application receives an independent, objective review by one or more review panels
       qualified to evaluate the applications submitted under the program; and

l      Each review panel uses the selection criteria cited in the application solicitation notice.

The panels evaluated the applications using the following weighted criteria set forth in the
published notice:

l      Capability and experience of firm and staff (45 points);
l      Techniques and methodologies (25 points);
l      Resources (10 points); and
l      Costs (20 points).

MBDA further divides the criteria, with points given for each subcriterion, for use in assessing
the merits of each applicant. For instance, the capability and experience of the firm would be
determined by assessing the applicant’s client service experience, its knowledge of the
geographic service area, the quality of its professional relationships, and the backgrounds of the
professional staff and project director. In our opinion, the criteria and subcriteria used in the
NABDC program reflect a merit-based award process for the NABDC awards.

Reviewers must address the weighted criteria, verify that required standard forms and other
elements of the application are present, and comment in writing on the applicant’s qualifications.
We found that reviewers applied the merit-based criteria and subcriteria to assess the applicants,
and they properly documented their reviews of each application on MBDA evaluation forms.

DAO 203-26, Section 4.02h.1.(d.) requires that each review panel include at least three persons.
Reviewers from outside MBDA and the Department are permitted under the DAO. MBDA
Order No. 750 indicates that competitive review panels are comprised of at least three members
who are selected by the regional director or designee. However, under the MBDA order, panel
members are expected to be professional employees of the Department and MBDA. No other

                                                -8-
U.S. Department of Commerce                                             Audit Report BTD-10956-8-0001
Office of Inspector General                                                            September 1998

criteria for membership are listed; the regional director has broad discretion in the choice of
members.

MBDA used individual review panels, each with three or more MBDA regional business
development specialists, to review the applications for each of the six awards that we reviewed.
Fifteen different regional specialists served on the panels. One specialist served as chairperson
on each panel, and of the six awards we reviewed, only two panels shared the same chairman.
This diffusion of review responsibility among MBDA specialists provides assurance that no
single panel member could have influenced the review process for all awards. However, in all
awards reviewed, the panel members served in the same office as the regional director who
approved the award.

An MBDA official told us that they had used officials from MBDA headquarters several times to
review applications, but that officials from outside the Bureau had rarely served as panel
members. We believe that the use of knowledgeable reviewers, from outside MBDA or the
Department, to evaluate applications would provide an independent perspective and enhance the
objectivity of the merit-based selection process.

III.   PROCEDURES AND PRACTICES FOR SELECTING MBDC AWARDS
       ARE ADEQUATE

Although MBDA received only one to three applications for each award, it complied with the
Department’s requirements for selecting the awards. DAO 203-26, Section 4.02 h.1.(f)-(g),
mandates the steps to be followed in ranking and selecting applications for funding.

l      After the review panel has evaluated the applications, the organization unit prepares a
       rank ordering of the applications based solely on the evaluations by the review panel;

l      The organization unit determines the order in which applications will be selected for
       funding based on the following factors:

       (1)     Any priorities or other program requirements that have been published in the
               Federal Register and apply to the selection of applicants for new awards; and

       (2)     The rank order of the applications established by the review panel on the basis of
               the selection criteria.

MBDA followed procedures and practices in the DAO and Order No. 750 for ranking and
selecting applicants for each of the 6 new awards that we reviewed. After the individual panel
members completed their review and scoring of the applications based on the weighted criteria,
the rating sheets and applications were given to the panel chairperson for compilation and

                                                 -9-
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

summary. The panel chairperson reviewed the top-ranked application and met with the
appropriate regional director to determine competence of the applicant and quality of the
application. The second-rated applicant was selected in only 1 of the 7 MBDC award proposals
for which multiple applications were submitted. In that case, the regional director questioned the
competence of the highest-ranked applicant. We reviewed the selection and found that MBDA
had properly justified, in writing, the basis for its decision to award the grant to the second-
ranked applicant.

IV.    PROCEDURES AND PRACTICES FOR RENEWING
       PRIOR MBDC AWARDS ARE ADEQUATE

MBDA awarded 29 MBDC cooperative agreement renewals, totaling $5,129,635, in fiscal year
1997. We selected 10 awards totaling $2,345,526, including five of the six highest awards in
dollar value, to review renewal award procedures and practices. We found that MBDA has
adequate procedures for renewing awards and that it properly followed them in renewing the
awards we examined. Information on all fiscal year 1997 renewals is provided as Appendix II.

MBDA’s Order No. 750, Section 9.f., “Continued Funding,” states that “MBDA may continue to
fund MBDCs, without competition, after the initial competitive budget period. Additional
program funding is based upon the recipient’s performance, the availability of funds, and agency
priorities. MBDCs may earn additional non-competing budget periods (not to exceed a total of
five consecutive budget periods without competition).” Under the order, continued funding does
not require an additional application to the program, unless major changes are contemplated by
the recipient or MBDA. MBDA’s regional offices prepare and transmit requests for continued
funding in accordance with any instructions received from headquarters.

Proposals for renewal are to be processed in accordance with procedures outlined in Section 9.d.
of Order No. 750, “Competitive Application Review.” Proposals must be reviewed for their past
performance, justification for all proposed costs, and any outstanding debt to the U. S.
government. OEAM and the Department’s Office of General Counsel must review and approve
each request. We found that MBDA followed these procedures for all cases that we reviewed.




                                               -10-
U.S. Department of Commerce                                           Audit Report BTD-10956-8-0001
Office of Inspector General                                                          September 1998

V.     RECOMMENDATIONS

We recommend that the MBDA Director:

1.     Enhance the MBDC solicitation process, through announcements in additional media
       outlets and in areas with large minority populations, to provide a widespread solicitation
       of eligible applicants.

2.     Include officials from outside MBDA and the Department as MBDC proposal reviewers
       to enhance the objectivity of the merit-based selection process.

                                            ------------

MBDA’s Response to Draft Audit Report

MBDA agreed with the findings and recommendations in our report. MBDA is currently
modifying its financial assistance award process and, as part of the realignment, plans to
implement the recommendations. MBDA intends to broaden its outreach efforts to attract the
widest possible range of candidates to apply to operate MBDA-funded projects. MBDA also
intends to include officials outside of MBDA and the Department as panelists to review
incoming proposals.

MBDA’s complete response to the draft report is attached as Appendix IV.




                                               -11-
                                    MBDA PROCEDURES FOR SOLICITATION, REVIEW, AND SELECTION OF AWARDS

                                                                                                        Return to Applicant
                                                                             Yes



MBDA Publishes Notice in
                                                                       Application Incomplete
   Federal Register                     Application
                                                                              or Late?



                                                                              No
                                                                                                                                                                   Panel Conducts Detailed
                                                                                                        Send written                Review Panel Conducts                                       Panel Ranks Applications
                                                                                                                                                                  Reviews Using Evaluation
                                                                                                  acknowledgement of receipt        Preliminary Review and                                       and Submits to Regional                A
                                                                                                                                                                   Criteria and Documents
                                                                                                        to applicants                 Documents Results                                         Director for Final Selection
                                                                                                                                                                            Results




                           Final Selection Packaged     Final Selection Package                                                                                   MBDA Technicians Conduct
                                                                                                Package Forwarded to
    A                      and Submitted to MBDA      Received and Logged in By                                                Package Assigned to MBDA            Required Records Check
                                                                                                  MBDA Budget for                                                                                     B
                                 Headquarters          Field Coordination Division                                                 Staff for Reviews                  and Accuracy of
                                                                                                Confirmation of Funds
                                                                 (FCD)                                                                                                  Computations




                 MBDA Specialists Conduct                   Package           No                                                                             No
                                                                                              Submit Package for                                                  Submit Package for MBDA
    B             Programmatic Review of                 Found Deficient?                                                             Package Found
                                                                                           Preliminary Legal Review                                                  Director's Approval
                         Package                                                                                                        Deficient?


                                                                                                                                         Yes                                                                           Solicitation Process
                                                            Yes

                                                                                                                               Deficiency Notice Send to
                                                      Deficiency Notice Sent to                                                  FCD for Liaison with                                                                    Review Process
                                                                                                                                                                         To Department OEAM for
                                                           Regional Office                                                      Paneling Regional Office                Review and Final Approval

                                                                                                                                                                                                                        Selection Process




                                                                                                                                Paneling Regional Office
                                                      Regional Office Responds to                                               Responds to Deficiency
                                                           Deficiency Notice                                                            Notice




                                                                                                                                                                                                                               Appendix I
                                                                   Appendix II

                  MINORITY BUSINESS DEVELOPMENT AGENCY

            MINORITY BUSINESS DEVELOPMENT CENTER PROGRAM

                               New Awards for Fiscal Year 1997
                                                                   AWARD
RECIPIENTS (Awards reviewed are italicized)                      AMOUNTS
Arizona Hispanic Chamber of Commerce                                $188,867
Associates Products De P. R.                                         509,309
Business Development Group                                           169,125
DESA Inc.                                                            695,535
Grijalva & Allen, P. C.                                              414,500
H. V. Villegas & Co.                                                 377,221
Interracial Council                                                  266,500
Jamaica Business Resource Center                                     250,000
Latin American Chamber of Commerce                                   276,500
Los Angeles Urban League                                             414,667
Ralph G. Moore & Associates                                          188,867
Suncoast Chamber of Commerce                                         169,125
TOTALS                                                           $ 3,920,216
                                                                        Appendix III
                      MINORITY BUSINESS DEVELOPMENT AGENCY

              MINORITY BUSINESS DEVELOPMENT CENTER PROGRAM

                                    Renewals for Fiscal Year 1997
                                                                      AWARD
RECIPIENTS (Awards reviewed are italicized)                         AMOUNTS
Asian, Inc.                                                               $141,578
Asian, Inc.                                                                141,578
Banks, Finley, White & Co.                                                  92,130
Brown & Robinson Systems                                                    84,563
Business Development Group                                                 150,438
Business Development Group                                                 300,876
Business Development Group                                                 150,438
County of Ventura                                                          188,867
Denver Business Development Group                                          188,867
Greene & Flowers, P. C.                                                     84,563
Globetrotter Engineering                                                    84,563
Globetrotter Engineering                                                    84,562
Interracial Council                                                        377,221
Impact Business Consultant                                                 188,867
Impact Business Consultant                                                  84,562
John Milligan, CPA                                                         165,282
John Milligan, CPA                                                         330,563
Kendall Square Associates                                                  141,578
Kendall Square Associates                                                  566,825
Murtha & Associates                                                         48,175
NEDA Business Consultant, Inc.                                             283,156
NEDA Business Consultant                                                   169,125
Opportunity Development Associates                                         328,000
Tanana Chief Conference                                                    169,125
University of Dayton                                                        84,562
University of Texas - San Antonio                                          141,578
Urban League of Great Oklahoma                                             169,125
Wybirk & Associates                                                         94,434
Wybirk & Associates                                                         94,434
TOTALS                                                              $     5,129,635
Appendix IV
